NO. 19IN THE

Supreme Court of the United States
ELEAZAR CORRAL VALENZUELA,

v.
UNITED STATES OF AMERICA,

Petitioner,

Respondent.

CERTIFICATE OF WORD COUNT

As required by Supreme Court Rule 33.1(h), I certify that the
document contains 2,223 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on October 4, 2019.

Rita L. Hemenway
Rita L. Hemenway
NOTARIZED BY:

George D. Bateman
George D. Bateman
My Commission Expires: May 30, 2025

